RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-7460
Carlos Rodriguez Fernandez,
Petitioner

v.
United States,

Respondent.
As required by Supreme Court Rule 33.1(h), I, Donna Lee Elm, certify that
the Reply Brief of Petitioner in the foregoing case contains 2,981 words, excluding
the parts of the document that are excluded by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 8, 2021.

/s/ J. Donna Lee Elm
DONNA LEE ELM *
LAW PRACTICE OF DONNA
ELM
1465 W. Wagon Wheel
Road
Cottonwood, AZ 86326
(602) 299-7022
donnaelm1014@gmail.com

